Statement of Petitioner
Blueberry Hill Public Golf Course & Lounge

1.
Petitioner owns and operates a seasonal public golf facility which includes a golf course,
restaurant and lounge.
2.
Petitioner is located in northwest Pennsylvania and due to weather constraints
Petitioner’s facility operates in spring, summer and fall, for a total of approximately thirty (30)
weeks per year. The Petitioner opened its facility March 15, 2020.
3.
Petitioner is on the non-life-sustaining list and was ordered by Governor Wolf to close its
facility.
4.
Petitioner closed its facility on March 19, 2020, the closure date ordered by Governor
Wolf.
5.
Following the issuance of the closure order by Governor Wolf, Petitioner has been unable
to generate revenue from its facility including the inability to do the following:
a.

Charge fees (greens fees) for the use of its golf course.

b.

Charge fees for the use of its golf carts and golf range.

c.

Sell beverages and food (either eat-in or take-out).

d.

Sell golf equipment.

6.
In addition to the general harm caused by the Petitioner’s inability to generate revenue,
the Petitioner has been harmed in the following additional ways:
a.
Petitioner cannot simply close its facility; instead it must still expend significant
sums to maintain its golf course, including mowing fairways and greens so that the grass thereon
remains under control and is not ruined for future golf activities. However, Petitioner has been
denied the opportunity to make use of its golf course to derive the income necessary to pay for
the maintenance operations.
b.
Spring is the time of year when certain season-dependent maintenance, such as
fertilization and pest control, should be performed. Such work is dependent upon the season, and
when the season passes, the opportunity for the useful performance of the work is lost. However,
without the ability to host customers at the golf course the Petitioner is without funds to purchase
the maintenance supplies and to perform the season-dependent maintenance.
c.
Spring is the time of year when winter storm damage, such as fallen trees, eroded
pathway and roads, and eroded sand traps are repaired in order to make the golf course ready for

Page 1 of 3

play. At the time the Governor’s closure order went into effect Blueberry had already incurred
expenses for such repairs.
d.
Prior to learning of the Governor’s closure order Petitioner made contracts to
purchase new or replacement equipment for the 2020 golf season and requires the equipment in
order to perform some of the maintenance cited above. However, without revenue from
customers, the Petitioner does not have sufficient funds to honor the purchase agreements and
Petitioner is left without the equipment required to perform necessary operations.
e.
On January 1, 2020 Petitioner began accepting golf course membership fees for
the 2020 season, which fees apply to various memberships, including course memberships
(entitling members to golf course access), range memberships (entitling members to golf range
access) and cart memberships (entitling members to golf cart usage). Petitioner utilized the
membership fees to pay for operating expenses for the 2020 golf season. As a result of the
closure ordered by Governor Wolf, the Petitioner is unable to offer the course, range and cart
services for which Petitioner’s members paid, thereby putting Petitioner in breach of the duties it
owes its members. Petitioner is without ability to refund all or a portion of the membership fees.
7.

The harm suffered by the Petitioner is irreparable for the following reasons:
a.

The time of closure cannot be recaptured and the revenues that Petitioner would
have generated during the time of closure cannot be duplicated or replaced by any
action within the power of Petitioner. Based upon the past five years’ data the
Petitioner would have reasonably expected to generate gross revenues of
approximately sixty-six thousand dollars ($66,000.00) between the date of closure
(March 19, 2020) and the date of the preparation of this document April 22,
2019). Petitioners’ revenues increase significantly with the improvement of
weather and the Petitioner would reasonably expect to generate significantly
greater revenues in the succeeding months of its 2020 season, but for the closure
ordered by Governor Wolf.

b.

A significant portion of the Petitioner’s golf course, restaurant and lounge revenue
is generated in association with golf tournaments conducted at Petitioner’s
facility. The golf tournaments occur on weekends beginning in the month of
May, they are booked far in advance, and rescheduling tournaments is generally
impossible, especially if the tournament is a “large” tournament requiring the
“blocking-out” of Petitioner’s entire facility for the majority of the day.
Tournaments are generally organized by non-profit entities for the purpose of
fund-raising; a significant component of nearly all tournaments is the securing of
tournament sponsors. Given the existence of the closure order by Governor Wolf
tournament organizers have reported to Blueberry their unwillingness to attempt,
or their inability to obtain, tournament sponsors. Consequently, tournament
organizers have begun to cancel tournaments scheduled at Petitioner’s facility
including a “large” tournament scheduled for May 2020 that will not be
rescheduled.

Page 2 of 3

c.

A significant number of the annual golf course, golf cart and golf range
memberships sold by Petitioner are purchased by customers, who primarily (or
exclusively), play in the weekly golf-league events conducted at Petitioner’s
facility. Many of those golf-league players purchase the annual memberships as a
result of the fact that, when all of the weekly league events are accounted for, the
annual membership fees are less expensive than payment of weekly fees. League
play at Petitioner’s facility was scheduled to begin in mid-April 2020. As a result
of the closure ordered by Governor Wolf the number of weekly league events in
2020 will necessarily be reduced thereby reducing the value of annual
memberships to those weekly golf-league players who normally purchase annual
memberships. As a result of those dynamics Petitioner’s sale of annual
memberships is significantly reduced in comparison with previous years.

d.

The Petitioner is licensed to purchase and serve liquor at its facility pursuant to a
license issued by the Commonwealth of Pennsylvania. The Commonwealth of
Pennsylvania requires that the license be renewed annually at a cost of onethousand two hundred eighty dollars ($1,280.00). Petitioner duly renewed its
liquor license for the 2020 season by submitting the required documents and
paying the required fee. However, the Petitioner will be unable to enjoy the
benefits of the usage of such license due to the closure ordered by Governor Wolf.

e.

Petitioner is indebted pursuant to several promissory notes, including a mortgage
obligation to Northwest Savings Bank, an obligation related to golf cart
purchases, and other obligations related to other purchases and debts incurred
during the course of business. Without revenue generated by various components
of Petitioner’s facility the Petitioner is unable to continue the payments required
under said promissory notes.

f.

Blueberry’s short operating season of thirty weeks requires Blueberry to
accumulate funds for the coming twenty-two week off season. The Governor’s
closure order prevents Blueberry from accumulating those necessary funds and
Blueberry is without the ability to borrow more funds or to obtain the funds
necessary to sustain the off season.

Page 3 of 3

Received 4/22/2020 12:47:00 PM Supreme Court Middle District
Filed 4/22/2020 12:47:00 PM Supreme Court Middle District
68 MM 2020

IN THE SUPREME COURT OF PENNSYLVANIA
FRIENDS OF DANNY DEVITO
:
GREGORY, B&J LAUNDRY, LLC : No. 68 MM 2020
BLUEBERRY HILL PUBLIC GOLF :
COURSE & LOUNGE, and
: APPLICATION TO STAY
CALEDONIA LAND COMPANY, :
Petitioners
:
:
:
v.
:
:
TOM WOLF, GOVERNOR
:
AND RACHEL LEVINE,
:
SECRETARY OF PA.
:
DEPARTMENT OF
:
HEALTH,
:
:
Respondents
:

APPLICATION TO STAY THE ENFORCEMENT OF
GOVERNOR WOLF’S EXECUTIVE ORDER DATED MARCH 19, 2020
PENDING THE FILING AND DISPOSITION
BY THE UNITED STATES SUPREME COURT OF
PETITIONERS’ PETITION FOR WRIT OF CERTIORARI
COME NOW Petitioners, pursuant to Rule 3309 of the Pennsylvania Rules
of Appellate Procedure, and respectfully represent:
1.

Petitioners are Friends of Danny DeVito, Kathy Gregory, B&J

LAUNDRY, LLC, Blueberry Hill Public Golf Course & Lounge, and Caledonia
Land Company.

Page 1 of 4

2.

Respondents are The Honorable Tom Wolf, Governor of the

Commonwealth of Pennsylvania, and Dr. Rachel Levine, Secretary of the
Department of Health of the Commonwealth of Pennsylvania.
3.

On Thursday, March 19, 2020, in response to the viral illness,

COVID-19, Pennsylvania Governor Thomas W. Wolf issued an order compelling
the closure of the physical operations of all businesses and entities that he deemed
to be non-life-sustaining (hereinafter the “Executive Order”).
4.

On March 24, 2020, Petitioners filed an Emergency Application for

Extraordinary Relief in this Court asking it to vacate the Executive Order.
5.

On April 13, 2020, this Court entered an Order denying all claims

brought by the Petitioners.
6.

Petitioners intend to file a Petition for Writ of Certiorari in the United

States Supreme Court asking that court to review this Court’s April 13, 2020
Order.
7.

The Executive Order has and is continuing to cause irreparable harm

to the Petitioners and all those businesses and entities in the same non-lifesustaining classification of the Executive Order.
8.

Petitioners request this Court issue an order to stay the enforcement of

the Executive Order pending the filing and disposition by the United States
Supreme Court of Petitioners’ Petition for Writ of Certiorari.
Page 2 of 4

9.

Petitioners shared this Application with counsel for the Respondents.

10.

Respondents do not concur in the request.

WHEREFORE, Petitioners pray this Honorable Court issue an order staying
the enforcement of the Executive Order pending the filing and disposition by the
United States Supreme Court of Petitioners’ Petition for Writ of Certiorari for
review of this Court’s Order dated April 13, 2020.
Respectfully submitted,
April 22, 2020

/s/ Marc A. Scaringi
Marc A. Scaringi, Esq.
Supreme Court ID No. 88346
Scaringi Law
2000 Linglestown Road, Suite 106
Harrisburg, PA 17110
marc@scaringilaw.com
717-657-7770 (o)
717-657-7797 (f)

Page 3 of 4

IN THE SUPREME COURT OF PENNSYLVANIA
FRIENDS OF DANNY DEVITO,
:
KATHY GREGORY,
:
B&J LAUNDRY, LLC
: No. 68 MM 2020
BLUEBERRY HILL PUBLIC GOLF :
COURSE & LOUNGE, and
:
CALEDONIA LAND COMPANY, :
Petitioners
: APPLICATION TO STAY
:
:
v.
:
:
TOM WOLF, GOVERNOR
:
AND RACHEL LEVINE,
:
SECRETARY OF PA.
:
DEPARTMENT OF
:
HEALTH,
:
Respondents
:
CERTIFICATE OF SERVICE
I, Deborah A. Black, Paralegal for Scaringi Law, do hereby certify that I
served a true and correct copy of the Application to Stay The Enforcement of
Governor Wolf’s Executive Order dated March 19, 2020 Pending the Filing and
Disposition by the United States Supreme Court of Petitioners’ Petition for Writ
of Certiorari, in the above-captioned action, upon the following via PACfile
System, to:

J. Bart DeLone
Chief Deputy Attorney General
Pennsylvania Office of Attorney General
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov

Keli Marie Neary, Esquire
Executive Deputy Attorney General
PA Attorney Civil Law Division
Pennsylvania Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
kneary@attorneygeneral.gov

Karen Masico Romano, Esquire
Chief Deputy Attorney General
Pennsylvania Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
kromano@attorneygeneral.gov

Gregory George Schwab, Esquire
Pennsylvania Office of General Counsel
Governor's Office of General Counsel
333 Market St 17th Fl.
Harrisburg, PA 17126-0333
grschwab@pal.gov

Date: April 22, 2020

/s/ Deborah A. Black____________
Deborah A. Black, Paralegal
For Marc A. Scaringi, Esquire and
Brian C. Caffrey, Esquire

IN THE SUPREME COURT OF PENNSYLVANIA
FRIENDS OF DANNY DEVITO,
:
KATHY GREGORY,
:
B&J LAUNDRY, LLC
: No. 68 MM 2020
BLUEBERRY HILL PUBLIC GOLF :
COURSE & LOUNGE, and
:
CALEDONIA LAND COMPANY, :
Petitioners
: APPLICATION TO STAY
:
:
v.
:
:
TOM WOLF, GOVERNOR
:
AND RACHEL LEVINE,
:
SECRETARY OF PA.
:
DEPARTMENT OF
:
HEALTH,
:
Respondents
:
CERTIFICATE OF COMPLIANCE
I certify that this filing complies with the provisions of the Case Records
Public Access Policy of the Unified Judicial System of Pennsylvania that require
filing confidential information and documents differently than non-confidential
information and documents.
Submitted by:

Petitioners’ Counsel

Signature:

/s/ Marc A. Scaringi

Name:

Marc A. Scaringi, Esquire

Attorney No. (if applicable):
Date:

88346

April 22, 2020

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

FRIENDS OF DANNY DEVITO, KATHY
GREGORY, B&J LAUNDRY, LLC,
BLUEBERRY HILL PUBLIC GOLF COURSE
& LOUNGE, AND CALEDONIA LAND
COMPANY,
Petitioners

v.

TOM WOLF, GOVERNOR, AND RACHEL
LEVINE, SECRETARY OF PA
DEPARTMENT OF HEALTH,
Respondents

: No. 68 MM 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 24th day of April 2020, upon review and consideration of the
“Application to Stay the Enforcement of Governor Wolf’s Executive Order Dated March
19, 2020 Pending the Filing and Disposition by the United States Supreme Court of
Petitioners’ Petition for Writ of Certiorari,” said Application is hereby DENIED.

